            Report No. D-2010-004                            October 29, 2009




 Cost Increases Related to the Producer Price Index
for Titanium Mill Shapes on DOD Multiyear Contracts




                                           Special Warning
This report contains contractor information that may be company confidential or proprietary. Section
1905, title 18, United States Code, and section 423, title 41, United States Code, provide specific
penalties for the unauthorized disclosure of company confidential or proprietary information. You
must safeguard this report in accordance with DOD Regulation 5400.7-R. This document is exempt
from the mandatory disclosure under the Freedom of Information Act exemptions 3, 4, and 5.
Additional Information and Copies
To obtain additional copies of this report contact the Secondary Reports Distribution Unit
at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
ATI                           Allegheny Technologies Incorporated
BLS                           Bureau of Labor Statistics
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
IG                            Inspector General
PGI                           Procedures, Guidance, and Information
RTI                           RTI International Metals, Inc.
TIMET                         Titanium Metals Corporation
VSMPO                         Verkhnaya Salda Metallurgical Production Organization




                             FOR OFFICIAL USE ONLY
                                          INSPECTOR GENERAL
                                        DEPARTMENT OF DEFENSE
                                          400 ARMY NAVY DRIVE
                                     ARLINGTON, VIRGINIA 22202-4704


                                                                                             October 29, 2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               DIRECTOR, DEFENSE LOGISTICS AGENCY


SUBJECT: Cost Increases Related to the Producer Price Index for Titanium Mill Shapes
         on DOD Multiyear Contracts (Report No. D-201 0-004)

We are providing this report for your information and use. We considered management
comments on a draft of this report in preparing the final report.

Comments on the draft of this report conformed to the requirements of DOD Directive
7650.3 and left no unresolved issues. Therefore, we do notrequire any additional
comments.

                                           nded to the staff. Please direct questions to me at




                                                 ~~~     Richard B. Jolliffe
                                                         Assistant Inspector General
                                                         Acquisition and Contract Management




                                                 SPHt:1Hh "AftHIHe
'HIL< ICPOIt coataiiiS COihim. . tOI infoi1ifutish that may be cbliIpuaJ cOi£fieJcntialm Plbptietdij. ece.isn 1906,
1"$'1 ii's IJiliti il £htn g~ ~~; [ui duH! B!t, tith 11, PI it!!} J9t t!!1 e! 88; Pi! hI! !pui~! P!II Hi!! it tll!
w??ut'.-rizyJ diJ h '"j ffiim~HlI) ilsnf.iriuffll 1 PSlllis'!l) InfsllhutiSl1. '[0& h1L2stsafsguliid this
ZGf!l81l ill tts86iclaaeo ;;jill ~'e8 RegaLtbii f 108.7 R. This a081Zl111snt i !!I!IHJ!' H!!iI tIL! H nd!t!I./
disslosdib aadOi the Fteeeiolh efInfohHatisn Aat 81lBi1lfltiOllS 3, 1, &llld f.




                                                                                                                      b(6)
Report No. D-2010-004 (Project No. D2007-D000CH-0182.000)               October 29, 2009

               Results in Brief: Cost Increases Related to
               the Producer Price Index for Titanium Mill
               Shapes on DOD Multiyear Contracts
                                                     $300 million annually if DOD purchased half of
What We Did                                          its annual titanium requirement (10 million to
Our overall audit objective was to determine         15 million pounds) on a long-term contract priced
whether cost increases related to the producer       at about $10 per pound, instead of at market
price index for titanium mill shapes on DOD          prices ranging between $20 to $30 per pound.
multiyear contracts with economic price
adjustment clauses corresponded with increased       What We Recommend
costs incurred by the contractor for titanium        We recommend that the Director, Defense
parts. We reviewed how titanium costs were           Procurement and Acquisition Policy, determine
built into the contracts for the Navy F/A-18 E/F     whether it is appropriate to use a narrow index
Super Hornet, the Air Force F-22 Raptor, and         such as the Bureau of Labor Statistics producer
the F-35 Joint Strike Fighter. We also assessed      price index for titanium mill shapes in economic
the effectiveness of using the Bureau of Labor       price adjustment clauses on DOD multiyear
Statistics producer price index for titanium mill    contracts or whether it is more effective to
shapes in DOD multiyear contracts.                   develop an economic price adjustment
                                                     methodology based on published market prices.
What We Found                                        We also recommend that the Deputy Under
Economic price adjustments related to titanium       Secretary of Defense for Industrial Policy, in
materials on the Navy F/A-18 E/F contract            conjunction with the Administrator, Defense
generally corresponded with increased costs          National Stockpile Center, Defense Logistics
incurred by the contractor. However, we              Agency, develop a strategic purchasing program
determined that DOD did not have effective           for titanium materials.
internal controls over the use of the Bureau of
Labor Statistics producer price index for titanium   Management Comments and
mill shapes in DOD multiyear contracts with an       Our Response
economic price adjustment clause. We found the       The Director, Industrial Policy (responding also
index to be outdated, too narrow, and not            for the Director, Defense Procurement and
transparent to its users, thus causing DOD           Acquisition Policy), and the Administrator,
contracts using the index to be affected by          Defense National Stockpile Center, Defense
extreme market volatility.                           Logistics Agency, agreed with the report
                                                     recommendations. The comments were
We also determined that DOD had not effectively      responsive and no additional comments are
mitigated its risk for titanium material price       required. Please see the recommendations table
increases on Defense aerospace weapons systems.      on the back of this page.
The market prices had increased from $5.35 per
pound in 2004 to as high as $34.54 per pound in
2006. DOD was subject to this market volatility
because it does not have a strategic purchasing
program for titanium. We calculate, for example,
that DOD could save from $100 million to
                                      FOR OFFICIAL USE ONLY
                                                 i
Report No. D-2010-004 (Project No. D2007-D000CH-0182.000)        October 29, 2009

Recommendations Table

Management                          Recommendations         No Additional Comments
                                    Requiring Comment       Required
Director, Defense Procurement                               1
and Acquisition Policy

Deputy Under Secretary of                                   2
Defense for Industrial Policy

Administrator, Defense National                             2
Stockpile Center, Defense
Logistics Agency




                                  FOR OFFICIAL USE ONLY
                                            ii
Table of Contents

Introduction                                                           1

      Objective                                                       1
      Background                                                      1
      Review of Internal Controls                                     3

Finding. Titanium Pricing in DOD Aerospace Contracts                   5

      Recommendations, Management Comments, and Our Response          22

Appendices

      A. Scope and Methodology                                        24
             Prior Coverage                                           25
      B. Potential Increases in Aircraft Costs                        26

Management Comments

      Defense Procurement and Acquisition Policy and
            Deputy Under Secretary of Defense for Industrial Policy   27
      Defense National Stockpile Center, Defense Logistics Agency     32




                           FOR OFFICIAL USE ONLY
Introduction
Objective
Our overall audit objective was to determine whether contract cost increases related to
the Bureau of Labor Statistics (BLS) producer price index for titanium mill shapes on
DOD multiyear contracts with economic price adjustment clauses corresponded with
increased costs incurred by the contractor for titanium products. We identified the Navy
F/A-18 E/F Super Hornet aircraft contract with The Boeing Company (Boeing) as
including an economic price adjustment clause using the producer price index for
titanium mill shapes. We also reviewed titanium pricing information for the Air Force
F-22 Raptor aircraft and the F-35 Joint Strike Fighter aircraft contracts with Lockheed
Martin Corporation (Lockheed Martin); however, these contracts did not include
economic price adjustment clauses using the producer price index for titanium mill
shapes. See Appendix A for a discussion of the scope, methodology, and prior coverage.

Background
We conducted this audit as a follow-on to DOD Inspector General (IG) Report
No. D-2008-099, “Effect of Payments Into Boeing Pension Funds on Economic Price
Adjustment Clauses in DOD Contracts,” May 28, 2008. The audit identified that
Boeing’s pension fund contributions reported to BLS caused the BLS aircraft
manufacturing index to spike, resulting in significant unjustified cost increases that were
not related to economic behavior on DOD multiyear contracts with Boeing for the Army
AH-64D Apache Longbow helicopter, the Navy F/A-18 E/F Super Hornet aircraft, and
the Air Force C-17 Globemaster III aircraft. During the audit, we also determined that
the materials portion of the Navy F/A-18 E/F Super Hornet contract economic price
adjustment clause increased primarily due to the significant increase in the BLS producer
price index for titanium mill shapes.

Bureau of Labor Statistics
The U.S. Department of Labor, BLS “is the principal fact-finding agency for the Federal
Government in the broad field of labor economics and statistics.” It “is an independent
national statistical agency that collects, processes, analyzes, and disseminates essential
statistical data to the American public, the U.S. Congress, other Federal agencies, State
and local governments, businesses, and labor.” BLS provides an array of data on
inflation and consumer spending; wages, earnings, and benefits; productivity; safety and
health, international labor statistics, and price indexes; occupational outlooks;
demographics; and employment.

BLS Producer Price Index
BLS publishes the producer price index, which is a family of indexes that measures the
average change over time in selling prices received by domestic producers of goods and
services. Producer price indexes measure price change from the perspective of the seller.
Uses of the producer price index data include contract escalation, indication of overall
price movement at the producer level, measurement of price movement for particular

                             FOR OFFICIAL USE ONLY
                                       1
industries and products, comparison of industry-based price data to other industry-
oriented economic time series, and forecasting.

Economic Price Adjustment
The purpose of an economic price adjustment clause is to provide adjustments to the
contract price as a result of changes in the economic behavior of the national economy.
The objective is that the contractor shall neither realize economic benefit nor incur
economic loss by reason of abnormal economic fluctuations. Federal Acquisition
Regulation (FAR) Section 17.109, “Contract Clauses,” states that a contracting officer
should include an economic price adjustment clause in a multiyear contract likely to
warrant a labor-and-material costs contingency in the contract price. FAR 16.203-2,
“Application,” states that fixed-price contracts with an economic price adjustment may be
used when there is doubt concerning stability of market or labor conditions during the
extent of contract performance. Specifically, price adjustments should be limited to
contingencies beyond the contractor’s control.

The Defense Federal Acquisition Regulation Supplement (DFARS) Procedures,
Guidance, and Information (PGI) 216.203-4, “Contract Clauses,” provides guidelines for
contract adjustments based on cost indexes of labor or materials. DFARS PGI 216.203-4
recommends three general series published by BLS when constructing an index for an
economic price adjustment, one of which is the industrial commodities of the producer
price index. The guidance states that the “basis of the index should not be so large and
diverse that it is significantly affected by fluctuations not relevant to contract
performance, but it must be broad enough to minimize the effect of any single company,
including the anticipated contractor(s).” It also states that for adjustments based on cost
indexes of labor or material, normally contracting officers should not use more than two
indexes, that is, one for labor and one for material.

Titanium
Titanium is a strong, lightweight metal that is corrosion resistant. Titanium compounds
and alloys have a huge range of applications, from the manufacture of toothpaste and
false teeth to the development of artificial hip joints and deep-diving submarines. The
aerospace industry is the largest market for titanium products primarily due to the
exceptional strength-to-weight ratio, elevated temperature performance, and corrosion
resistance. Titanium applications are most significant in jet engine and airframe
components that are subject to temperatures up to 1100 degrees Fahrenheit and for other
critical structural parts. Usage is widespread in most commercial and military aircraft.

In 2007, an estimated 76 percent of domestic titanium metal was used in aerospace
applications. The titanium industry is extremely competitive on a worldwide basis.
Producers of melted and milled titanium are located primarily in the United States, Japan,
France, Germany, Italy, Russia, China, and the United Kingdom. There are three major
competitors in the U.S. aerospace titanium market: Allegheny Technologies Incorporated
(ATI); RTI International Metals, Inc. (RTI); and Titanium Metals Corporation (TIMET).
A Russian company, Verkhnaya Salda Metallurgical Production Organization (VSMPO),


                             FOR OFFICIAL USE ONLY
                                       2
is the world’s largest manufacturer of titanium and a major competitor to the U.S.
titanium producers in commercial aerospace.

The production of titanium sponge is the first step of the titanium process. The sponge is
then melted with scrap and/or other alloying elements to produce titanium ingots. Ingots
are forged to slabs or billets. Mill products result from the rolling or further processing
of forged or cast slab or billet into plate, sheet, bar, rod, and wire. Figure 1 shows
pictures of titanium sponge, ingot, billet, and sheet.

           Figure 1. Pictures of Titanium Sponge, Ingot, Billet, and Sheet




                 Sponge                                             Ingot




                  Billet                                           Sheet

Defense National Stockpile Center
The Defense National Stockpile Center, a field activity of the Defense Logistics Agency,
is identified by the FAR as the supply chain manager of strategic and critical materials
for the Federal Government. Defense National Stockpile Center officials stated that it
has the ability to manage materials, understand domestic and global market dynamics and
the impact of technology changes on material needs, and assess the impact of supply and
demand for materials and overall geopolitical issues affecting the supply of materials.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as

                             FOR OFFICIAL USE ONLY
                                       3
intended and to evaluate the effectiveness of the controls. We identified an internal
control weakness for the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics.

In DOD IG Report No. D-2008-099, we determined that Boeing’s pension contributions
explained more than 99 percent of the increase in the BLS aircraft manufacturing index,
that Boeing comprised about               of the index, and that Boeing reimbursed BLS
for the costs associated with collecting and publishing the aircraft manufacturing index
through a contract with the Aerospace Industries Association. We recommended that
DOD prohibit use of the BLS aircraft manufacturing index in DOD multiyear contracts
with economic price adjustment clauses because Boeing had become the dominant force
and could unfairly influence the index and the BLS data were not transparent to users of
the index. In response to the report, the Director, Defense Procurement, Acquisition
Policy, revised the DFARS PGI to prohibit the use of the BLS aircraft manufacturing
index and stated that he would issue a general policy memorandum to the Service
Acquisition Executives alerting them to closely monitor contract economic price
adjustment provisions.

Similarly, in this report we found that the BLS producer price index for titanium mill
shapes, used in the economic price adjustment clause of the Navy F/A-18 E/F Super
Hornet contract, was outdated and subject to extreme market volatility, as it was
primarily based on spot market prices. The index was also too narrow to be used in DOD
multiyear contracts, as the
                did not report titanium pricing information to BLS. Additionally, the BLS
data are not transparent to users of the indexes; therefore, DOD does not know what
information is included in index calculations. DFARS PGI 216-203.4 already directs
DOD contracting officers to use caution when incorporating economic price adjustment
provisions in contracts. Implementing Recommendation 1 will improve the internal
control weakness identified in this report.

We will provide a copy of the report to the senior official responsible for internal controls
in the Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics.




                              FOR OFFICIAL USE ONLY
                                        4
Finding. Titanium Pricing in DOD Aerospace
Contracts
DOD had not effectively mitigated its risk for titanium material price increases on
contracts for Defense aerospace weapons systems. Supplier costs for titanium ingot
(prices per pound) used to manufacture Defense aerospace components delivered in 2004,
2005, 2006, and 2007 varied from $5.35, to $7.15, to $34.54, to $29.00, respectively.
DOD was subject to this market volatility in titanium material pricing because:

       DOD suppliers of titanium components had not always secured titanium material
        on long-term contracts and material purchased at market prices carried a
        significantly higher price that got passed through to DOD contracts.

       DOD multiyear contracts that used the BLS producer price index for titanium mill
        shapes were not effective because the BLS index was outdated, primarily based
        on spot market prices, and too narrow an index.

       DOD does not have a strategic purchasing program for titanium to leverage
        buying power, take advantage of economies of scale, and secure prices on long-
        term contracts when acquiring titanium products.

As a result, Defense aerospace weapons systems were subject to higher market prices for
titanium material based on supply and demand of titanium in the commercial marketplace.
Various sources estimate that DOD requires between 20 million and 30 million pounds of
titanium annually. The Office of the Deputy Under Secretary of Defense for Industrial
Policy calculated that a 50 percent increase in titanium prices would increase the FY 2005
through FY 2011 buy of Defense aerospace systems1 by more than $200 million. We
calculate, for example, that DOD could save from $100 million to $300 million annually if
it purchased about half (10 million to 15 million pounds) of its annual titanium
requirement on a long-term contract priced at about $10 per pound instead of at market
prices ranging between $20 to $30 per pound. (See Table 3 on page 21.)

Market Volatility in Titanium Pricing
According to a December 2005 study by the Office of the Deputy Under Secretary of
Defense for Industrial Policy, titanium is not sold on market exchanges and is
characterized by small market size, few producers, and one dominating end-sector. The
study stated that the aerospace industry accounts for about half of world titanium
consumption and over half of U.S. titanium consumption. Because of this, volatile


1
  The Office of the Deputy Under Secretary of Defense for Industrial Policy report, “China’s Impact on
Metals Prices in Defense Aerospace,” December 2005, analyzed titanium price increases on Defense
aerospace systems, including: the Air Force C-17 Globemaster III, the Navy F/A-18 E/F/G Super Hornet,
the Air Force F-22 Raptor, and the F-35 Joint Strike Fighter.

                                 FOR OFFICIAL USE ONLY
                                           5
swings in the aerospace industry drive large cycles in the titanium market. According to
the study, the post-9/11 downturn in commercial aerospace weakened titanium demand
considerably, but an upswing in Defense aerospace began to mitigate this decline in
2003. In 2004, titanium demand soared due to a rebound in commercial aerospace.
Several new commercial aircraft designs, such as the Boeing Dreamliner 787 and the
Airbus A380, use a large amount of titanium and when these programs enter production,
titanium demand will strengthen, likely keeping prices high. In 2005 and 2006, demand
for titanium on these commercial programs, in addition to DOD aerospace programs
using higher percentages of titanium materials, caused a dramatic increase in the demand
for titanium. U.S. titanium producers had a short supply of titanium sponge and scrap;
therefore, the increased titanium consumption caused an increase in titanium market
prices. In 2007 and 2008, U.S. titanium producers ramped up production and built new
facilities to increase production and lift capacity. Recent economic conditions have led to
delays in the production of commercial aircrafts, which has led to an increased supply of
titanium sponge and scrap, and therefore, market prices have begun to decline.

Effect of Spike in Titanium Prices on the Navy F/A-18 E/F Super
Hornet Contract
The Navy included an economic price adjustment clause using the BLS producer price
index for titanium mill shapes in the F/A-18 E/F Super Hornet contract. This index
spiked significantly because of the increase in titanium market prices. The economic
price adjustment clause in the Navy contract included six different BLS producer price
indexes for various materials; however, the majority of the materials’ price adjustments
under the economic price adjustment clause were due to price increases for titanium. At
the time the Navy awarded the F/A-18 E/F contract, the BLS producer price index for
titanium mill shapes was projected to increase by about 20 percent over the 5-year
performance period from FY 2005 through FY 2009. However, because of the spike in
the BLS producer price index for titanium mill shapes, the total cumulative escalation for
titanium materials on the contract was 139 percent. The material price increase related to
titanium costs for the FY 2007 through FY 2009 performance period was $129 million,
which accounted for more than 66 percent of the total material cost increases during that
period of performance. The contract did not include any type of annual limits or caps on
price escalation; therefore, the Navy was subject to payment of the entire cumulative
increase in the titanium mill shapes index.

Titanium Costs for F/A-18 E/F Super Hornet Suppliers
The F/A-18 E/F Super Hornet economic price adjustment clause covered Northrop
Grumman Corporation (Northrop Grumman) materials. According to Northrop
Grumman titanium information, the spot market prices for titanium ingot reflected an
increase of at least           , from between         and        per pound in the second
quarter of 2004 to approximately          per pound in the third quarter of 2006. Northrop
Grumman stated that it had received requests for equitable adjustments from many of its
titanium suppliers, with an overall average increase of              in titanium costs from
the FY 2005 estimates.



                             FOR OFFICIAL USE ONLY
                                       6
We met with six companies that supplied titanium parts to Northrop Grumman for the
F/A-18 E/F Super Hornet program to determine whether their titanium prices had
increased. All stated that they had experienced increases in costs for titanium materials.
Some of the specific examples provided by the suppliers are as follows.

      One supplier provided purchase histories for three of its parts for the F/A-18 E/F
       Super Hornet. From 2004 through 2007, price increases for the three parts ranged
       from              to              . Additionally, this supplier submitted a request
       for equitable adjustment for                to Northrop Grumman because the cost
       of titanium materials had increased so much that the supplier would not be able to
       provide the parts at the original contract price.

      Another supplier was not able to provide copies of purchase orders, but stated that
       its price for titanium ingot had increased by           from         per pound in
       June 2003 to           per pound in July 2006.

      A third supplier provided copies of invoices for titanium for five F/A-18 E/F
       Super Hornet parts to demonstrate the increase in titanium costs. From 2004
       through 2007, the price increases for the parts ranged from             to
                  .

      Another supplier had a long-term agreement with Northrop Grumman dated
       February 2005. However, the agreement had a provision for adjustments for raw
       material price changes. The baseline prices (February 2005) for most of the parts
       for the F/A-18 E/F Super Hornet used titanium ingot priced at          per pound.
       However, the supplier needed to revise its prices due to significant increases in
       titanium prices. In August 2006, the supplier provided Northrop Grumman part
       price quotes that used a base ingot price of        per pound. In October 2006,
       just 2 months later, the supplier provided Northrop Grumman a change notice
       stating that titanium ingot prices had increased again due to raw material price
       increases to         per pound; an increase of              from the February 2005
       titanium ingot price.


Market Prices Compared to Long-Term Contract Prices
DOD was subject to market volatility in titanium material pricing because DOD suppliers
of titanium components had not secured titanium material on long-term contracts and
material purchased at market prices carried a significantly higher price that got passed
through to DOD contracts. Because they were such small companies and only produced
a few parts for the aircraft, most of the suppliers did not have long-term contracts with
the titanium producers, and therefore paid market prices for titanium materials used for
parts on the F/A-18 E/F Super Hornet program. Some of the suppliers we met with also
stated that it was difficult to secure long-term contract pricing with the titanium
producers for DOD contracts because DOD requirements were only defined and funded
on a yearly basis, thus putting too much risk on the supplier to establish long-term pricing
arrangements for titanium materials.

                             FOR OFFICIAL USE ONLY
                                       7
One of the companies that we met with supplied titanium parts for the F/A-18 E/F Super
Hornet, the F-22 Raptor, and the F-35 Joint Strike Fighter programs. This supplier
maintained long-term contracts with the three U.S. titanium producers. Table 1 is a
comparison of the supplier’s market and long-term contract pricing for titanium ingot for
the DOD programs. As seen in the table, the supplier received better prices for titanium
ingot when purchasing from the U.S. titanium producers under long-term contract than on
the spot market.

      Table 1. Market and Long-Term Contract Titanium Ingot Prices (Per Pound)
Year                      Producer 1 Pricing   Producer 2 Pricing    Producer 3 Pricing
                          Market Contract      Market Contract       Market Contract
2003
2004
2005
                                 *
2006
                                 *
2007
                                 *                    *
2008

*
             price based on BLS index.
**
     Price for other DOD Aerospace Programs.

According to this company, it has a contract with Producer 1 that includes the BLS
producer price index for titanium mill shapes in the formula used to calculate price
adjustments. Producer 1 also reports pricing information to BLS. As shown in Table 1,
prices for titanium increased from        in 2005 to        in 2007, or about
using the BLS index. Consequently, Producer 1 was directly impacting its own titanium
selling prices by reporting prices to BLS that caused the BLS producer price index to
increase, causing Producer 1’s selling prices to increase, which would in turn cause the
BLS index to further increase—a vicious circle affecting DOD titanium prices.

F-22 Raptor and F-35 Joint Strike Fighter Contracts
In contrast to the F/A-18 E/F Super Hornet contract, which used an economic price
adjustment clause with the BLS producer price index for titanium mill shapes, neither the
Air Force F-22 Raptor nor the F-35 Joint Strike Fighter contracts with Lockheed Martin
included economic price adjustments for materials in the contracts.

Different Methods to Buy Titanium
The following are some of the methods used by different companies to purchase volatile
commodities, such as titanium:

         Take-or-Pay Model – An agreement between a buyer and seller that obligates the
          buyer to pay a minimum amount of money for a product or service, even if the

                                FOR OFFICIAL USE ONLY
                                          8
       product or service is not delivered. Boeing Commercial and Airbus buy direct on
       take-or-pay contracts from several producers, allocate material to service providers
       and users, and contract with service providers to manage and allocate material.

      Right-to-Buy Model – A contractual agreement between a producer and suppliers,
       where the suppliers forecast requirements to the producer and the producer
       manages the material inventory. Lockheed Martin maintains a requirements
       contract with a titanium producer and the producer uses right-to-buy provisions
       with suppliers.

      Spot Market Purchases – The purchase of titanium on the spot market is the least
       favorable method because of the volatility in the titanium industry. Without
       pricing agreements and caps on price escalation, DOD is subject to the extreme
       price increases of titanium, as seen in the F/A-18 E/F Super Hornet contract.

Lockheed Martin maintains long-term contract arrangements with the U.S. titanium
producer RTI for the F-22 Raptor and F-35 Joint Strike Fighter programs using its right-
to-buy model. According to a report by the Office of the Deputy Under Secretary of
Defense for Industrial Policy, Lockheed Martin took a proactive position to work with its
suppliers and put into place material management risk mitigation actions and plans.
According to Lockheed Martin, its right-to-buy model reduces administration costs,
follows the year-to-year DOD contracting method, and allows suppliers to dictate start
size most efficiently, encouraging cost containment. Lockheed Martin also stated that the
take-or-pay model increases termination liability to DOD.

F-22 Raptor Long-Term Contract Arrangement
Lockheed Martin and Boeing Integrated Defense Systems have a joint long-term right-to-
buy contract with RTI for titanium sheet and plate on the F-22 Raptor program through
the year 2015. Sheet and plate prices are significantly higher than ingot prices because
sheet and plate result from additional processing of ingots, such as forging and rolling.
Under the long-term contract, Lockheed Martin will pay less than market prices for
titanium sheet and plate. According to an April 2008 Lockheed Martin presentation,
Lockheed Martin paid about            to        per pound for titanium plate in 2004
through 2008, while market prices during the same period ranged from about             to
        per pound. The agreement also includes price escalation provisions that are
limited to an increase or decrease of          annually.

However, Lockheed Martin did not maintain all titanium requirements for the F-22
Raptor program under long-term contract with RTI. Table 2 shows the pricing for
titanium ingot that Lockheed Martin purchased for aircraft forgings from a different U.S.
titanium producer.

         Table 2. Lockheed Martin F-22 Raptor Titanium Ingot Agreement
Year                            2005            2006             2007            2008
Ingot price (per pound)

                             FOR OFFICIAL USE ONLY
                                       9
F-35 Joint Strike Fighter Long-Term Contract Arrangement
Lockheed Martin also maintains a long-term contract with RTI for titanium sheet, plate,
and billet on the F-35 Joint Strike Fighter program through the year 2020. Like the F-22
Raptor agreement, this agreement includes price escalation provisions that are limited to
an increase or decrease of            annually. Using a market price forecasted by Global
        2
Insight, Lockheed Martin stated that it will also pay less for sheet, plate, and billet under
the F-35 long-term contract with RTI, averaging about            to         per pound from
2007 through 2020, while market prices are forecasted to be about             to         per
pound during the same period.

Annual Price Escalation Caps
Even though market titanium prices began to decrease, according to Lockheed Martin, it
will still be paying less than market prices under its long-term contracts with the
            escalation cap by mitigating the escalation in titanium costs. The Navy
F/A-18 E/F Super Hornet contract baseline included a cumulative escalation of about
20 percent for titanium costs over the 5-year performance period of the contract.
However, the cumulative escalation on the contract was significantly higher at
139 percent. Without an annual cap on escalation, DOD multiyear contracts may
experience significant price increases. Had the Navy included a cap on titanium price
escalation in the F/A-18 E/F Super Hornet contract, it would have avoided the extreme
contract price increases caused by the volatility of the titanium market. These caps
would then need to flow down to the titanium producers to be effective.

DOD Contracts Using the BLS Producer Price Index for
Titanium Mill Shapes
DOD multiyear contracts that used the BLS producer price index for titanium mill shapes
were also not effective because the BLS index was outdated, primarily based on spot
market prices, and too narrow an index. The Navy F/A-18 E/F Super Hornet contract is
the only DOD multiyear contract we identified using the BLS producer price index for
titanium mill shapes in its economic price adjustment clause.

BLS Titanium Mill Shapes Index
According to the BLS Producer Price Index, Branch of Industry Pricing Chief, producer
price indexes measure the average change in prices received by domestic producers. The
producer price index is an output price index, thus, the index for titanium mill shapes
reflects prices received by U.S. commercial mills for their output. Producer price index
data are based on selling prices reported by companies of all sizes selected by probability
sampling, with the probability of selection proportionate to size. Individual items and
transaction terms from these companies are also chosen by probability proportionate to
size sampling methods. For example, the likelihood of selecting a long-term contract


2
  Global Insight is an independent economic forecasting company that provides comprehensive economic,
financial, and political information to support planning and decision making for various countries, regions,
and industries, including both private industry and DOD.

                                   FOR OFFICIAL USE ONLY
                                             10
versus a spot sale is proportional to the share of company revenue each represents in a
given product line. Consequently, to the extent that transactions in the industry are
characterized by long-term supplier contracts, the producer price index sample will
reflect that. However, even though BLS requests pricing data for the producer price
index for titanium mill shapes from specific titanium producers, cooperation with the
producer price index survey is voluntary.

As shown in Figure 2, the producer price index for titanium mill shapes was relatively
stable from 1986 through the end of 2003. In April 2004, the index started to slowly
increase, and by April 2006, the index significantly spiked. From December 2003
through December 2006, the index increased by 167 percent. From December 2006 to
November 2008, the index had gradually decreased by about 20 percent.

                    Figure 2. BLS Producer Price Index for Titanium Mill Shapes

                    300
                    250
        BLS Index




                    200
                    150
                    100
                     50
                      0
                       86


                              88


                                     90


                                            92


                                                   94


                                                          96


                                                                 98


                                                                        00


                                                                               02


                                                                                      04


                                                                                             06


                                                                                                    08
                     19


                            19


                                   19


                                          19


                                                 19


                                                        19


                                                               19


                                                                      20


                                                                             20


                                                                                    20


                                                                                           20


                                                                                                  20
                                                               Year


                                                               BLS Index



Titanium Mill Shapes Index is Outdated
According to BLS Producer Price Index officials, the industry sample for the titanium
mill shapes index began in March 2002, when the industry had been stable for years.
They stated that, on average, BLS re-samples an industry every 7½ years, but because the
titanium industry had remained stable for so many years, BLS determined that it would
re-sample the titanium industry every 9 years. In early 2002, however, there was not an
emphasis on long-term contract pricing of titanium because market prices did not
fluctuate as they have in recent years.

For comparison purposes, we reviewed the BLS producer price index for titanium
forgings and the BLS producer price index for non-ferrous metal castings. According to
BLS, both of these indexes were sampled in mid-to-late 2007, and therefore, most likely
include more long-term contract pricing. Figure 3 shows the spike in the titanium mill
shapes index and how it compares to the average spot market titanium ingot prices from
American Metal Market and Metal Prices. The figure also shows how the titanium



                                          FOR OFFICIAL USE ONLY
                                                    11
forging and non-ferrous metal castings indexes did not have such significant spikes
because more long-term contract prices were included in those indexes.

  Figure 3. Comparison of Average Spot Market Titanium Ingot Prices and BLS
    Producer Price Indexes for Titanium Mill Shapes, Titanium Forgings, and
                          Non-Ferrous Metal Castings

              350                                                                                         $35

              300                                                                                         $30




                                                                                                                Average Titanium Price Per Pound
              250                                                                                         $25
  BLS Index




              200                                                                                         $20

              150                                                                                         $15

              100                                                                                         $10

               50                                                                                         $5

                0                                                                                         $0
                    9         0       1         2       3         4         5       6         7       8
                n-9       n-0     n-0       n-0     n-0       n-0       n-0     n-0       n-0     n-0
              Ja        Ja      Ja        Ja      Ja        Ja        Ja      Ja        Ja      Ja
                                                               Date
                        Titanium Mill Shapes Index                           Titanium Forgings Index
                        Non-Ferrous Metal Castings Index                     Average Titanium Ingot Market Price*
                    * Titanium ingot market prices were not available before January 2004.


BLS officials we met with stated as titanium prices increased in recent years, more
emphasis was placed on long-term contracts. Major titanium producers had long-term
contracts with big commercial companies, such as Boeing and Airbus, to mitigate market
risk. Because the BLS producer price index for titanium mill shapes was primarily based
on spot market prices, DOD contracts using this index in economic price adjustment
clauses were subject to higher escalation based on the index than actually occurred when
long-term contract pricing arrangements were factored into the index calculations.

Transparency of BLS Data
BLS data are protected by the Confidential Information Protection and Statistical
Efficiency Act of 2002, so users of BLS indexes have no insight into what information is
contained in the indexes. The Confidential Information Protection and Statistical
Efficiency Act of 2002 states that data collected under a pledge of confidentiality for


                                             FOR OFFICIAL USE ONLY
                                                       12
exclusively statistical purposes cannot be disclosed or used for any purpose other than a
statistical purpose. The BLS pledge of confidentiality is as follows:

               The Bureau of Labor Statistics, its employees, agents, and partner
               statistical agencies, will use the information you provide for statistical
               purposes only and will hold the information in confidence to the full
               extent permitted by law. In accordance with the Confidential
               Information Protection and Statistical Efficiency Act of 2002 (Title 5 of
               Public Law 107-347) and other applicable Federal laws, your responses
               will not be disclosed in identifiable form without your informed
               consent.

BLS does not disclose the contents or supporting data for the indexes that it publishes,
including identification of company names, products, or transaction terms that constitute
the sample for the producer price index for titanium mill shapes and would not provide
the data regarding the producer price index for titanium mill shapes to the audit team.
Therefore, the audit team obtained information reported to BLS directly from U.S.
titanium producers.

U.S. Titanium Producers
We identified three major U.S. titanium producers: TIMET, ATI, and RTI. Both the
TIMET and ATI annual reports stated that TIMET, ATI, and RTI are the major
competitors in the U.S. titanium market. According to BLS, several smaller titanium
milling companies contribute pricing data to the producer price index for titanium mill
shapes; however, because BLS would not provide information on any company included
in the producer price index for titanium mill shapes, we focused on the three major U.S.
titanium producers.

We used data from the 2007 annual report from each of the three major U.S. titanium
producers that we identified to calculate the percent of titanium sales. As shown in
Figure 4, we calculated that out of the combined sales of the three major U.S. titanium
producers, TIMET had the largest portion, at 42.5 percent. ATI had the second largest
portion at 36.6 percent, with RTI following at 20.9 percent.




                                FOR OFFICIAL USE ONLY
                                          13
           Figure 4. Percent of Titanium Sales From 2007 Annual Reports




                                                         ATI
                                TIMET
                                                        36.6%
                                42.5%




                                                RTI
                                               20.9%




We met with representatives from the titanium producers and requested copies of the data
they provided to BLS for the titanium mill shapes producer price index.

     , did not report titanium pricing information to the index, while        and
reported data for different titanium products.


The                                                      stated that he was not aware of
anyone in the company who provided data to BLS for purposes of the producer price
index and BLS had not requested that            provide information on its titanium prices
for the producer price index for titanium mill shapes. Therefore, although

                                        it did not report data to BLS for the titanium mill
shapes producer price index.


The                                                       stated that      reported to BLS
on a monthly basis. We obtained from         the titanium pricing data reported to BLS
from December 2004 through February 2008. The
                 stated that BLS requested that      report pricing data to BLS for the
following types of titanium:                       .     stated that the prices reported to
BLS were an average of both market and long-term contract prices for the types of
titanium specifically requested by BLS; however,        produced several other types of
titanium that were not reported to BLS. Because the industry sample for the titanium mill
shapes index was selected in early 2002, the titanium products BLS selected for          to
report pricing information may not be the current       high-selling items.

Also, if     did not sell a reported type of titanium in a given month,       would report
the previous month’s price to BLS. For example, if          sold a titanium ingot in

                               FOR OFFICIAL USE ONLY
                                         14
January 2004 for      per pound and did not receive another order until April 2004, it
would report      each month until a new order was received, even though the market
price may have increased in February 2004 to        per pound. The BLS producer price
index information collection form stated that if there was no shipment during the given
month to “estimate the price you would have charged.” However, based on the way that
     completed the form, a significant increase or decrease in titanium pricing would not
be accurately reflected in the BLS index, potentially distorting the titanium market for
companies using BLS indexes.


The                                                    stated that      reported titanium
pricing data to BLS on a monthly basis. We obtained from             the titanium pricing data
reported to BLS from January 2004 through December 2007.                reported pricing data
for the following types of titanium:                            According to the
                                                            only reported market prices to
BLS, as its long-term contract prices were considered company confidential information.
     would not disclose the percentage of sales on long-term contract to the audit team.
However, according to 2006 and 2007          annual reports,        had a large long-term
contract with                                                       a long-term contract with
                                                      and several long-term contracts for
commercial aerospace programs. Based on our calculations from these documents,
had at least 28 percent to 55 percent of sales on long-term contract. In comparison, the
         2007 annual report stated that          had about 50 percent of sales on long-term
contract, and the                                   stated that       had about 70 percent of
sales on long-term contract.

The BLS Producer Price Index, Branch of Industry Pricing Chief stated that the producer
price index sample would reflect the extent that transactions in the industry were
characterized by long-term supplier contracts. However,         only reported market prices
to BLS, not long-term contract prices; therefore, the index would not accurately reflect
the industry pricing.

Titanium Market Prices
We obtained titanium ingot market pricing data from American Metal Market and Metal
Prices through the Defense National Stockpile Center. American Metal Market is an
international daily metals news service that provides up-to-date pricing information for
industrial materials included in the ferrous and non-ferrous metals markets. Metal Prices
is a metal pricing utility specifically targeted to anyone responsible for tracking the raw
material value of any metal product. Defense National Stockpile Center officials stated
that they use prices reported by American Metal Market and Metal Prices to track market
pricing of commodities like titanium that are not sold on market exchanges. For
example, the Defense National Stockpile Center included an economic price adjustment
clause for titanium ingot in a contract awarded to TIMET in November 2008. The
economic price adjustment calculation was primarily based on the combined average of
quarterly ingot pricing from American Metal Market and Metal Prices.


                              FOR OFFICIAL USE ONLY
                                        15
We used the data from American Metal Market and Metal Prices to identify the combined
average price for titanium ingot each month from February 2004 through April 2009. We
then inflated the prices using the percentage change in the BLS producer price index for
titanium mill shapes. As shown in Figure 5, the combined average April 2009 titanium
ingot market price was $10.34 per pound. If a DOD multiyear contract included the BLS
producer price index for titanium mill shapes in its economic price adjustment clause, and
the contract baseline date was anywhere from July 2004 through March 2009, DOD
would be paying more than the market price for titanium in April 2009. For example, if
the contract was awarded in January 2006 and titanium prices were inflated using the
BLS producer price index for titanium mill shapes, the contract price in April 2009 would
be $26.46. However, the spot market price in April 2009 was only $10.34. The contract
price was about 156 percent more than the spot market price at the same date.

  Figure 5. Comparison of Base-Year Ingot Prices Inflated With the BLS Index to
                       Average April 2009 Market Prices

                              $30.00
                              $27.00
                                       Market Price as of
                              $24.00
                                       April 2009: $10.34
   Titanium Price Per Pound




                              $21.00
                              $18.00
                              $15.00
                              $12.00
                               $9.00
                               $6.00
                               $3.00
                               $0.00
                                       t




                                       t




                                       t




                                       t




                                       t
                                       l




                                       l




                                       l




                                       l




                                       l
                                      r
                                      n

                                      r




                                      n




                                      n

                                      r




                                      n

                                      r




                                      n

                                      r




                                      n
                                   Oc




                                   Oc




                                   Oc




                                   Oc




                                   Oc
                                    Ju




                                    Ju




                                    Ju




                                    Ju




                                    Ju
                                   Ap
                                   Ap




                                   Ap




                                   Ap




                                   Ap
                                   Ja




                                   Ja




                                   Ja




                                   Ja




                                   Ja




                                   Ja
                                         2004           2005        2006             2007   2008   2009
                                                                     Base Year - Date
                                                                       BLS Index Price



When pricing titanium in multiyear DOD contracts using an economic price adjustment
clause with the BLS producer price index for titanium mill shapes, the titanium price at
the base year of the contract is especially important. Volatility in the BLS producer price
index for titanium mill shapes could cause DOD to pay more (or less) in multiyear
contracts with an economic price adjustment clause depending on the contract baseline
date. If DOD entered into a contract when the titanium prices were at a high level, that
price would be captured in the contract baseline, and then because the BLS producer
price index for titanium mill shapes lags behind market prices, DOD would be affected
by the high price again through the index. The index also does not decrease as quickly as
market prices, so DOD would continue to pay the higher price under an economic



                                                            FOR OFFICIAL USE ONLY
                                                                      16
adjustment clause using the BLS producer price index for titanium mill shapes even
though market prices were lower.

The DFARS PGI 216.203-4, “Contract clauses,” cautions contracting officers when using
economic price adjustment provisions in contracts that the “provisions can result in
significant and unanticipated price increases which can have major adverse effects to a
program.” It also states that, for adjustments based on cost indexes of labor or material,
“the basis of the index should not be so large and diverse that it is significantly affected
by fluctuations not relevant to contract performance, but it must be broad enough to
minimize the effect of any single company, including the anticipated contractor(s).”
Additionally, the guidance states that for adjustments based on cost indexes of labor or
material, normally contracting officers should not use more than two indexes, that is, one
for labor and one for material.

However, there is inherent risk in using BLS indexes in DOD contract economic price
adjustment clauses because the indexes are not transparent to the users of the index. If a
BLS index must be used in an economic price adjustment clause, DOD contracting
officers should consider using a broad index to encompass all materials instead of a
narrow, industry-specific index. The risk increases when using a BLS index that is as
narrow as the producer price index for titanium mill shapes because the index covers an
industry that consists of few producers and does not include the largest U.S. titanium
producer. In instances such as this, it may be better for DOD to tie contract escalation to
published market prices. According to the Defense National Stockpile Center, tying
pricing to published pricing allows for greater oversight and control because it gives the
Government the ability to objectively gauge changes in the market. We see no value in
using the producer price index for titanium mill shapes versus an economic price
adjustment methodology based on market prices. The Director, Defense Procurement
and Acquisition Policy, should determine whether it is appropriate to use a narrow index,
such as the BLS producer price index for titanium mill shapes in economic price
adjustment clauses, on DOD multiyear contracts or whether it is more effective to
develop an economic price adjustment methodology based on published market prices.

Strategic DOD Purchasing Program for Titanium
Materials
DOD was subject to market volatility in titanium material pricing because DOD did not
have a strategic purchasing program for titanium to leverage buying power, take
advantage of economies of scale, and secure prices on long-term contracts when
acquiring titanium products. Also, DOD had limited options when purchasing titanium
because of the restriction on the acquisition of specialty metals under title 10, United
States Code, section 2533b.




                             FOR OFFICIAL USE ONLY
                                       17
Boeing Commercial Titanium Purchasing Practices
One method that DOD could use as a model for its strategic purchasing program is the
Boeing Commercial Airplanes practice. Boeing Commercial Airplanes has a centralized
material handling function through                     to manage strategic commodities,
such as titanium, across the Boeing Commercial Airplanes supply chain. Boeing
purchases titanium directly on a              contract from several titanium producers and
has it delivered directly to                   Boeing then contracts with
to manage and allocate the titanium to the correct subcontractors. This allows Boeing
integrated data management, mill performance management, and the ability to leverage
total program demand. According to a May 2008 Boeing presentation to the audit team,
the use of                   to manage titanium assures appropriate raw material
availability to support Boeing commercial production, prioritizes delivery of at-risk
materials, and minimizes production line disruptions. It also allows for a direct
partnership with titanium mills by enabling partnering, long-term capital investments, and
technical collaboration.

According to Boeing, through this arrangement, Boeing Commercial Airplanes has the
ability to match demand to supply and pace mill production to total aggregated
requirements, resulting in improved forecasting                        Additionally, the
arrangement offers stable pricing to the Boeing Commercial Airplanes supply chain by
taking speculative escalation and risk out of supplier pricing, capturing the benefits of
preferred pricing throughout the supply chain, and eliminating assertions and disruption
costs.

Boeing Commercial Pricing




Effect of the Specialty Metals Clause
Title 10, United States Code, section 2533b, requires DOD to buy strategic materials
critical to national security from American sources. It offers protection to U.S. producers
by requiring that strategic materials purchased by DOD be melted or produced in the U.S.


3




                             FOR OFFICIAL USE ONLY
                                       18
It requires that all specialty metals, including titanium, used in products sold to DOD be
of U.S. origin or from a list of qualifying countries. Therefore, DOD options for
purchasing titanium are often limited during times of low supply and high demand.
When the U.S. demand for titanium spikes and there is shortage of supply, the specialty
metals clause requires the Military to purchase titanium from a U.S. producer, regardless
of what the price increases to, while commercial programs may purchase titanium from a
foreign origin at a more competitive price.

DOD Strategic Materials Protection Board
Section 843 of Public Law 109-364, “John Warner National Defense Authorization Act
for Fiscal Year 2007,” October 17, 2006, requires the establishment of a Strategic
Materials Protection Board to determine the need to provide a long-term domestic supply
of strategic materials designated as critical to national security, and to analyze the risk
associated with each material and the effect that non-availability from a domestic source
would have on National Defense. Additionally, the House Armed Services Committee
Report 109-89, accompanying the National Defense Authorization Act for FY 2006,
contained a request to review DOD’s policy to dispose of material and determine whether
the National Defense Stockpile should be reconfigured to adapt to current world market
conditions to ensure future availability of materials required for Defense needs.

The April 2009 “Reconfiguration of the National Defense Stockpile (NDS) Report to
Congress” concluded that transforming the National Defense Stockpile into a Strategic
Materials Security Program would enable the Nation to adapt more quickly to world
market conditions and to ensure the future availability of materials required for Defense
and national security needs. The Strategic Materials Security Program would
continuously monitor global markets, establish supply chain commitments with producers
and suppliers, monitor performance to ensure timely availability of materials, and store
limited amounts and types of materials. Further, the report stated that 11 materials used
in the largest quantity by DOD, one of which was titanium, should be addressed as
potential candidates for strategic sourcing.4 Titanium was also a material identified in the
report as a material with supply problems that had already caused significant weapon
system production delays for DOD.

According to the report, the Strategic Materials Security Program could have the
programmatic flexibility to efficiently and effectively acquire the right materials and to
ensure that essential strategic materials are available to respond to current and future
needs and threats. This includes the ability to more fully project material needs and the
ability to leverage the buying power of DOD and other Federal agencies by aggregating
materials requirements and negotiating long-term strategic procurement arrangements.
The report also stated that the Strategic Materials Security Program could aggregate
materials requirements to move discreetly in and out of markets without causing undue


4
  According to the “Reconfiguration of the National Defense Stockpile Report to Congress,” DOD defines
strategic sourcing as “… the collaborative and structured process of analyzing [what] an organization
spends and using the information to make business decisions about acquiring commodities and services
more effectively and efficiently…”

                                 FOR OFFICIAL USE ONLY
                                           19
market disruption while ensuring adequate supplies. The strategy employed could
include securing materials via strategic sourcing, establishing partnerships with friendly
nations, or stockpiling when appropriate. The potential benefits could result in shielding
programs from surging market prices, reducing production delays and/or leadtimes,
minimizing the impact of geopolitical issues that could disrupt the supply of materials,
and economic benefits derived from bulk purchases.

Industry Analysis
According to the December 2008 “Steel and Specialty Metals Trend Analysis,” by the
Defense Contract Management Agency, titanium prices fell steeply during the second
half of 2008 and were anticipated to continue decreasing through the first half of 2009.
However, because of the changing fundamentals in the global economy, metal prices
would probably not go back to pre-2003 levels. Regardless of the downturn in the
American economy projected for 2009, robust global growth in metals production and
consumption was forecasted well into the next decade and metal prices would remain
relatively high. The Defense Contract Management Agency stated that the continued
delays in the Airbus A380, the Boeing 787, and the Lockheed Martin F-35 Joint Strike
Fighter gave extra breathing space for buyers that were anticipating a shortfall in titanium
availability. Additionally, the titanium manufacturers were somewhat protected from the
effects of the downturn because of long-term contracts that were signed over the past
2 years. The report stated that the economic situation presents an opportunity for DOD to
re-examine key programs’ cost structures to assess where savings could occur with
respect to raw materials and metal products, such as forgings, engines, and airframes.

According to the Institute for Defense Analysis, “Assessment of Industry Investment in
U.S. Domestic Production of Strategic Materials,” October 2008, special metals
companies were investing for continued domestic production; and commercial demand,
rather than Defense demand, appeared to dominate investment plans. The report stated
the titanium sector was aggressively investing for an anticipated major increase in
aerospace demand, as titanium and composites took an increasing share of the commercial
aerospace materials market. Recent, publicly disclosed major expansions that were in
process or planned include TIMET, ATI, and RTI investments to upgrade titanium sponge
production at existing facilities, and to build new titanium sponge facilities.

The commercial aerospace industry, however, has historically been cyclical due to factors
both external and internal to the airline industry. Those factors include general economic
conditions, airline profitability, consumer demand for air travel, varying fuel and labor
costs, price competition, and international and domestic political conditions, such as
military conflict and the threat of terrorism. The length and degree of cyclical fluctuation
is influenced by those factors and therefore is difficult to predict with certainty. Demand
for titanium products is subject to those cyclical trends and was extremely high in 2005,
2006, and 2007. However, the recent economic conditions have caused delays in the
commercial aerospace industry.




                             FOR OFFICIAL USE ONLY
                                       20
Conclusion
DOD is subject to the volatility in the titanium market when pricing titanium materials in
its contracts for DOD aerospace programs because DOD does not have a strategic
purchasing program for titanium. Long-term contracts with U.S. titanium producers
could substantially mitigate the effect of unexpected price increases due to the market
volatility of titanium pricing. Long-term contracts could also be beneficial to the U.S.
titanium producers because the agreements provide a baseline volume, which is critical to
establishing standardized processes, securing necessary capital, negotiating purchasing
agreements with vendors, and planning manufacturing resources. The U.S. titanium
producer investments to meet demand for titanium products, coupled with the delays in
the commercial aerospace market, present an opportunity for DOD to negotiate long-term
contracts at preferential rates.

Various sources estimate that DOD requires between 20 million and 30 million pounds of
titanium annually. The Office of the Deputy Under Secretary of Defense for Industrial
Policy calculated that a 50 percent increase in titanium prices would increase the
FY 2005 through FY 2011 buy of Defense aerospace programs by more than
$200 million. (See Appendix B for details.) Titanium market prices have decreased over
the past 2 years, U.S. titanium producers have increased production, and the global
economic situation has resulted in delays in commercial aerospace markets; therefore, it
is an opportune time for DOD to negotiate long-term titanium pricing arrangements with
the U.S. titanium producers. Table 3 shows, for example, that if DOD purchased about
half (10 million to 15 million pounds) of its annual titanium requirement on a long-term
contract priced at about $10 per pound instead of at titanium market prices at between
$20 to $30 per pound, DOD could save from $100 million to $300 million annually.

           Table 3. Titanium Price and Quantity Comparison (in Millions)
 Price Per Pound        5 Pounds        10 Pounds          15 Pounds          20 Pounds
      $10.00              $ 50             $100               $150               $200
       15.00                75              150                225                300
       20.00               100              200                300                400
       25.00               125              250                375                500
       30.00               150              300                450                600
       35.00               175              350                525                700

The Strategic Materials Protection Board concluded that the National Defense Stockpile
should reshape into the Strategic Materials Security Program. They stated that this
program could have the programmatic flexibility to efficiently and effectively acquire the
right materials and to ensure that essential strategic materials are available to respond to
current and future needs and threats, including the ability to more fully project material
needs and the ability to leverage the buying power of DOD and other Federal agencies by
aggregating materials requirements and negotiating long-term strategic procurement

                              FOR OFFICIAL USE ONLY
                                        21
arrangements. In line with the conclusions of the National Defense Stockpile April 2009
Report to Congress, the Deputy Under Secretary of Defense for Industrial Policy, in
conjunction with the Administrator, Defense National Stockpile Center, Defense
Logistics Agency, should develop a strategic purchasing program for titanium with U.S.
titanium producers to leverage buying power, take advantage of economies of scale, and
secure prices on long-term contracts when acquiring titanium products.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Director, Defense Procurement and Acquisition Policy,
determine whether it is appropriate to use a narrow index such as the Bureau of
Labor Statistics producer price index for titanium mill shapes in economic price
adjustment clauses on DOD multiyear contracts or whether it is more effective to
develop an economic price adjustment methodology based on published market
prices.

Management Comments
The Director, Defense Procurement and Acquisition Policy, agreed. On September 9,
2009, he issued a policy memorandum advising contracting officers to use caution when
incorporating economic price adjustment provisions in contracts for volatile commodities
that have only a limited number of sources of supply. He stated that in these cases it
might be appropriate to consider an alternate methodology, such as one based on
published market prices, when incorporating economic price adjustment provisions.

Our Response
The Director, Defense Procurement and Acquisition Policy, action meets the intent of the
recommendation, and no additional comments are required.

2. We recommend that the Deputy Under Secretary of Defense for Industrial
Policy, in conjunction with the Administrator, Defense National Stockpile Center,
Defense Logistics Agency, develop a strategic purchasing program for titanium
materials with U.S. titanium producers to leverage buying power, take advantage of
economies of scale, and secure prices on long-term contracts when acquiring
titanium products.

Management Comments
The Director, Industrial Policy, and the Administrator, Defense National Stockpile
Center, Defense Logistics Agency, agreed. The Director, Industrial Policy, stated that the
April 2009 report to Congress recommended reconfiguring the National Defense
Stockpile into the Strategic Materials Security Program to lead the DOD effort in
establishing an integrated, interagency approach to strategic materials management. The
program is to provide programmatic flexibility to efficiently and effectively acquire and
maintain essential strategic materials, and allow DOD to leverage buying power by
aggregating materials requirements and negotiating long-term strategic agreements. He
stated that a legislative proposal for reconfiguration of the National Defense Stockpile is

                             FOR OFFICIAL USE ONLY
                                       22
being developed and will be submitted through the normal legislative cycle. The
Administrator, Defense National Stockpile Center, Defense Logistics Agency, stated the
Defense National Stockpile Center would operationally support a purchasing program for
titanium once it has been approved by the stockpile manager.

Our Response
The Director, Industrial Policy, and the Administrator, Defense National Stockpile
Center, Defense Logistics Agency, comments meet the intent of the recommendation, and
no additional comments are required.




                            FOR OFFICIAL USE ONLY
                                      23
Appendix A. Scope and Methodology
We conducted this performance audit from May 2007 through July 2009* in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We met with officials from the Naval Air Systems Command F/A-18 E/F Super Hornet
Program Office; the Air Force Materiel Command F-22 Raptor Program Office; the
Office of the Deputy Assistant Secretary of the Air Force for Contracting; the Office of
the Deputy Under Secretary of Defense for Industrial Policy; the Office of Portfolio
Systems Acquisition, Air Warfare; the Office of Defense Procurement and Acquisition
Policy; and the National Defense Stockpile Center. We interviewed and obtained
documentation on the F/A-18 E/F Super Hornet contract economic price adjustment
clause from the personnel of Northrop Grumman Corporation, El Segundo, California;
and the Naval Air Systems Command, Patuxent River, Maryland. We also interviewed
and obtained documentation on the F-22 Raptor and F-35 Joint Strike Fighter contracts
from the personnel of the Defense Contract Audit Agency Lockheed Martin Fort Worth
Office and Lockheed Martin, Fort Worth, Texas; the Defense Contract Audit Agency
Boeing Rainier Branch Office and the Boeing Integrated Defense Systems, Seattle,
Washington; the F-22 Raptor Program Office, Wright Patterson Air Force Base, Ohio;
and the F-35 Joint Strike Fighter Program Office, Arlington, Virginia. We met with
officials from the Defense National Stockpile Center and obtained historical titanium
pricing from American Metal Market and Metal Prices. We met with officials from BLS
to obtain information on the producer price index for titanium mill shapes. In addition,
we interviewed representatives from each of the three major U.S. titanium producers,
TIMET, RTI, and ATI, to obtain an understanding of the titanium industry and the price
increases they had incurred.

We reviewed the FAR and DFARS for guidance on economic price adjustment clauses in
multiyear contracts. Specifically, we reviewed FAR 17.109, FAR 16.203-2, and DFARS
PGI 216-203.4. We reviewed the multiyear contract economic price adjustment clause
and the cost models used by the Navy to calculate the adjustments. Specifically, we
reviewed economic price adjustment calculations for FY 2005 through FY 2009 for the
Navy F/A-18 E/F Super Hornet. We reviewed long-term contracts for the Air Force
F-22 Raptor and F-35 Joint Strike Fighter programs to determine how the contractors
built titanium pricing into the contracts. We reviewed annual reports from each of the
three major U.S. titanium producers and the titanium pricing data that ATI and RTI
reported to BLS in order to determine percent of sales on long-term contract and


*
 A break in performance occurred from April 2008 through January 2009 because of personnel
assignments to higher priority statutory projects required by sections 324 and 325 of the FY 2008 Defense
Authorization Act.
                                  FOR OFFICIAL USE ONLY
                                            24
increases in titanium costs. We reviewed titanium pricing information from American
Metal Market and Metal Prices to calculate the average increase in market prices for
titanium compared to the average increase in the BLS producer price index for titanium
mill shapes. We reviewed industry documents to determine the annual DOD titanium
requirements and calculated the amount DOD could save by developing a strategic
sourcing program to purchase titanium at lower prices than the spot market price. BLS
did not provide information on the producer price index for titanium mill shapes because
the data are protected by the Confidential Information Protection and Statistical
Efficiency Act of 2002.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Prior Coverage
During the last 5 years, the DOD IG has issued one report discussing economic price
adjustment clauses in DOD multiyear contracts. No reports have been issued discussing
cost increases related to the producer price index for titanium mill shapes in DOD
multiyear contracts with economic price adjustment clauses. Unrestricted DOD IG
reports can be accessed at http://www.dodig.mil/audit/reports.

DOD IG
DOD IG Report No. D-2008-099, “Effect of Payments Into Boeing Pension Funds on
Economic Price Adjustment Clauses in DOD Contracts,” May 28, 2008




                             FOR OFFICIAL USE ONLY
                                       25
Appendix B. Potential Increases in Aircraft
Costs
In December 2005, the Office of the Deputy Under Secretary of Defense for Industrial
Policy issued the report, “China’s Impact on Metals Prices in Defense Aerospace.” The
following table shows the report’s analysis of potential increases in titanium costs in
Defense aerospace weapons systems and the extent that different percentages of price
increases would have on the unit cost and total cost of the systems. Specifically, a
50 percent increase in titanium prices would increase the FY 2005 through FY 2011 buy
of Defense aerospace systems by about $200 million.

             Table. Potential Increases in Defense Aircraft Titanium Costs
 Aircraft type               Titanium Costs (Thousands of FY 2005 Dollars)
                    Base    Number   Total Cost   10 Percent 25 Percent 50 Percent
                    Unit      of                   Increase    Increase    Increase
                    Cost    Aircraft
C-17               $1,056      42     $ 44,352     $ 4,435     $ 11,089    $ 22,177
F/A-18 E/F            183    190        34,770        3,483       8,707      17,414
F/A-18G               193      90       17,370        1,736       4,340       8,681
F-22A               2,547    104       264,888       26,491      66,227     132,454
F-35 (CTOL)           162      79        12,798        1,279        3,198       6,395
F-35                  233     111        25,863        2,583        6,456      12,913
(CV/VSTOVL)
Total                                               $40,007     $100,017     $200,034




                             FOR OFFICIAL USE ONLY
                                       26
Defense Procurement and Acquisition Policy and Deputy
Under Secretary of Defense for Industrial Policy Comments




                   Click to add JPEG file




                        FOR OFFICIAL USE ONLY
                                  27
Click to add JPEG file




     FOR OFFICIAL USE ONLY
               28
Click to add JPEG file




     FOR OFFICIAL USE ONLY
               29
Click to add JPEG file




     FOR OFFICIAL USE ONLY
               30
Click to add JPEG file




     FOR OFFICIAL USE ONLY
               31
Defense National Stockpile Center, Defense Logistics
Agency Comments




                    Click to add JPEG file




                         FOR OFFICIAL USE ONLY
                                   32
Click to add JPEG file




     FOR OFFICIAL USE ONLY
               33
